Report No. D-2007-058     February 8, 2007




  Controls Over the Army, General Fund,
   Fund Balance With Treasury Journal
           Voucher Adjustments
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AGF                   Army General Fund
CLRS-AFS              Chief Financial Officer Load and Reconciliation System-Audited
                         Financial Statements
CLRS-FE               Chief Financial Officer Load and Reconciliation System-Front End
DDRS-AFS              Defense Departmental Reporting System-Audited Financial
                         Statements
DFAS                  Defense Finance and Accounting Service
FBWT                  Fund Balance With Treasury
FMR                   Financial Management Regulations
JV                    Journal Voucher
OMB                   Office of Management and Budget
OUSD(C)/CFO           Office of the Under Secretary of Defense (Comptroller)/Chief
                         Financial Officer
SOP                   Standard Operating Procedures
                Department of Defense Office of Inspector General
Report No. D2007-058                                                    February 8, 2007
   (Project No. D2005-D000FP-0248.002)

        Controls over the Army, General Fund, Fund Balance With
                 Treasury Journal Voucher Adjustments

                                 Executive Summary

Who Should Read This Report and Why? Civilians and uniformed officers who are
involved in the Army General Fund, Fund Balance With Treasury decision-making
process should read this report. It identifies issues related to the compilation process
used by the Defense Finance and Accounting Service (DFAS), Indianapolis to manage
the Army General Fund, Fund Balance With Treasury journal voucher adjustments.

Background. We performed this audit in support of Public Law 101-576, the “Chief
Financial Officers Act of 1990,” November 15, 1990, as amended by Public Law
103-356, the “Federal Financial Management Act of 1994,” October 13, 1994, and Public
Law 104-208, “Federal Financial Management Improvement Act of 1996,”
September 30, 1996.

The Army reported $130.7 billion in its Fund Balance With Treasury account and
$290.6 billion in total assets on its General Fund Balance Sheet as of June 30, 2005. The
Army General Fund, Fund Balance With Treasury account represented 31.0 percent of
the Fund Balance With Treasury account reported on the DoD Agency-Wide Balance
Sheet as of June 30, 2005.

Results. We reviewed the 24 journal voucher adjustments made by DFAS Indianapolis
to the Army General Fund, Fund Balance With Treasury account as of June 30, 2005.
DFAS Indianapolis did not correctly process the 24 journal voucher adjustments made to
the Army General Fund, Fund Balance With Treasury account for the period ending June
30, 2005. Specifically, DFAS Indianapolis did not select the appropriate category on 5
journal voucher adjustments, include detailed explanations to support the purpose for 21
journal voucher adjustments, include the appropriate supported or unsupported statement
in the description field for 6 journal voucher adjustments, and provide detailed
documentation to support the 24 journal voucher adjustments. As a result, DFAS
Indianapolis cannot provide reasonable assurance that the journal voucher adjustments
are accurate and valid and will correct the errors made to the Army General Fund, Fund
Balance With Treasury account as of June 30, 2005 (finding A).

DFAS Indianapolis did not provide adequate coordination and oversight over the Army
General Fund, Fund Balance With Treasury journal voucher adjustment process.
Specifically, DFAS Indianapolis did not properly coordinate journal vouchers of
$1 billion with the appropriate officials before processing, conduct journal voucher
reviews to ensure that the approval thresholds were met, review a sample of journal
voucher adjustments of less than $500 million to determine whether supporting
documentation was present and adequate, and assess the controls over the journal
voucher process and procedures. As a result, the oversight authority may be unaware of
certain journal voucher adjustments that require attention, and therefore, journal vouchers
may not receive the proper oversight required to minimize risks associated with the
journal voucher adjustments (finding B).

We also reviewed the DFAS Indianapolis management control program as it related to
the Army General Fund, Fund Balance With Treasury journal voucher adjustments
process. See the Finding sections of the report for detailed recommendations and
corrective actions taken by DFAS Indianapolis.

Management Actions. As a result of our audit, DFAS Indianapolis consolidated its
branch-level standard operating procedures and issued departmental accounting standard
operating procedures for journal vouchers. Although the departmental accounting
standard operating procedures for journal vouchers is a positive step, the standard
operating procedures should include information addressing the requirements of the
Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer quarterly
guidance. In addition, DFAS Indianapolis should amend Standard Operating Procedure
1114 to ensure that its procedures are in accordance with the departmental accounting
standard operating procedures for journal vouchers and adequately address the proper
coordination of journal vouchers of more than $1 billion.

Management Comments. The Director, DFAS Indianapolis did not agree with either
finding A or Recommendation A. The Director, DFAS Indianapolis disagreed with the
audit team’s interpretation of what was required to have an adequate explanation and
supporting documentation for journal vouchers. Notwithstanding this disagreement, the
Director, DFAS Indianapolis agreed to implement the substance of Recommendation A.
The Director, DFAS Indianapolis concurred with Recommendation B.

The Acting Deputy Chief Financial Officer provided unsolicited comments to the draft
report in which he agreed with the recommendations to the DFAS Indianapolis. In
addition, the Acting Deputy Chief Financial Officer commented on the status of revisions
to the DoD Financial Management Regulation and the Defense Departmental Reporting
System-Audited Financial Statements. See the Management Comments section of the
report for the complete text of comments.




                                            ii
Table of Contents

Executive Summary                                                i

Background                                                      1

Objectives                                                      3

Review of Internal Control                                      3

Findings
     A. Journal Voucher Adjustments                              5
     B. Coordination and Oversight Requirements                 13

Appendixes
     A.    Scope and Methodology                                17
     B.    Prior Coverage                                       18
     C.    Office of Management and Budget Circular No. A-123   20
     D.    Issues Identified with JV Adjustments                23
     E.    Report Distribution                                  24

Management Comments
     Office of the Undersecretary of Defense                    25
     Defense Finance and Accounting Service                     27
Background
    We performed this audit in support of Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356;
    the “Federal Financial Management Act of 1994,” October 13, 1994; and Public
    Law 104-208, “Federal Financial Management Improvement Act of 1996,”
    September 30, 1996.

    Fund Balance With Treasury. Fund Balance With Treasury (FBWT) is an asset
    account that represented a material line item on the June 30, 2005, Army General
    Fund (AGF) and the DoD Agency-Wide Consolidated Balance Sheets. Table 1
    shows what percentage of DoD assets the AGF FBWT and DoD Agency-Wide
    FBWT represent. Table 1 also shows FBWT as a percentage of total assets.

               Table 1. June 30, 2005, Consolidated Balance Sheet Extracts
                                                                         AGF as
                                                   DoD                Percentage of
                                AGF             Agency-Wide         DoD Agency-Wide
     FBWT                    $130.7 billion     $ 420.9 billion          31.0%
     Total Assets             290.6 billion       1,389.7 billion         20.9%
     FBWT as a
     Percentage of Total
     Assets                          45.0%                30.3%

    Defense Finance and Accounting Service Indianapolis. The Defense Finance
    and Accounting Service (DFAS) Indianapolis provides finance and accounting
    support to the Department of the Army. Support includes maintaining the Army
    accounting records. DFAS Indianapolis also prepares the Army financial
    statements by using general ledger trial balances and the status of appropriation
    data submitted by Army field activities and other sources. DFAS Indianapolis is
    responsible for ensuring the accuracy of the FBWT reported on the AGF Balance
    Sheet and Notes to the Financial Statements. Specifically, DFAS Indianapolis is
    responsible for establishing procedures to ensure that:

           •    the process for preparing financial reports is consistent, timely, and
                auditable;

           •    controls are in place to ensure the accuracy of the reports;

           •    amounts reported agree with appropriate general ledger balance; and

           •    it maintains a complete and documented audit trail to support the
                reports it prepares.
    Journal Voucher Adjustments. Journal voucher (JV) adjustments are primarily
    used during the preparation of the financial statements to adjust errors identified
    during the financial reports review process; to record those accounting entries
    that, due to system limitations or timing differences, have not been otherwise


                                          1
     recorded; and for month-/year-end closing purposes. DFAS Indianapolis uses
     three financial reporting systems to compile the AGF financial statements. These
     systems consist of the Defense Departmental Reporting System-Audited Financial
     Statements (DDRS-AFS), the Chief Financial Officer Load and Reconciliation
     System-Audited Financial Statements (CLRS-AFS), and the Chief Financial
     Officer Load and Reconciliation System-Front End (CLRS-FE).

     For the period ending June 30, 2005, DFAS Indianapolis made 24 JV adjustments
     to the AGF FBWT account. Table 2 shows the number of JV adjustments and the
     net and absolute amount of the AGF, FBWT portion of the JV adjustments by
     system.

                       Table 2. JV Adjustments to the AGF FBWT

                                             Net Amount of             Absolute Amount of
       Accounting              JV             FBWT portion                 FBWT portion
         System            Adjustments    of JV Adjustments¹            of JV Adjustments²
      DDRS-AFS                  9         $ (690,485,778.45)             $ 3,085,468,768.63
      CLRS-AFS                 14               (532,387,947.35)            2,441,099,879.49
      CLRS-FE                   1          (31,351,151,244.83)            31,597,728,999.71
       Total                   24         $(32,574,024,970.63)           $37,124,297,647.83
      ¹The net effect on the AGF FBWT account is determined by subtracting the credit amount
      from the debit amount (debit-credit) for the AGF FBWT portion of each JV adjustment.
      ²The absolute effect on the AGF FBWT account is determined by adding the absolute value
      of the debit and credit amounts for the AGF FBWT portion of each JV adjustment.




Criteria
     Office of Management and Budget. Office of Management and Budget (OMB)
     Bulletin No. 01-09, “Form and Content of Agency Financial Statements,”
     September 25, 2001, provides guidance for preparing agency financial statements.
     It defines the form and content for agency financials that are required to be
     submitted to the Director of OMB and Congress. The format and instructions
     provide a framework for agencies to provide information useful to agency
     managers, Congress, and the public.

     OMB Circular A-136. OMB Circular A-136, “Financial Reporting
     Requirements,” August 23, 2005, supersedes, incorporates, and updates OMB
     Bulletin No. 01-09. The provisions of OMB Circular A-136 are effective for the
     preparation of the September 30, 2005, financial statements; however, OMB
     Bulletin No. 01-09 was the presiding guidance for the period we reviewed.

     DoD Financial Management Regulation. DoD Regulation 7000.14-R, DoD
     Financial Management Regulation (FMR), volume 6A, chapter 2, “Financial




                                              2
           Reports Roles and Responsibilities,” March 2002, defines the roles and
           responsibilities of DFAS regarding the proper and consistent preparation of
           financial reports at all levels.

           DFAS Indianapolis Standard Operating Procedure. DFAS Indianapolis
           Standard Operating Procedure (SOP) 1114, “Journal Voucher Process,”
           May 24, 2005, provides procedures for preparing, processing, controlling,
           maintaining, reviewing, and approving all JV adjustments from DDRS-AFS,
           CLRS-AFS, and CLRS-FE.


Objectives
           The overall objective of this audit was to assess the internal controls over the
           AGF FBWT account JV adjustments for the period ending June 30, 2005. We
           also reviewed the management control program as it relates to the overall
           objective. See Appendix A for scope and methodology and Appendix B for prior
           coverage related to the objective.


Review of Internal Control
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, 1 require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls.

           Scope of the Review of the Management Control Program. We reviewed the
           adequacy of the internal controls over the AGF FBWT JV adjustments for the
           period ending June 30, 2005. We also reviewed management’s assessable units
           and self-evaluation applicable to those controls.

           Adequacy of Management Controls. Material management control weaknesses
           existed for AGF FBWT JV adjustments for the period ending June 30, 2005, as
           defined by DoD Instruction 5010.40. DFAS Indianapolis internal controls were
           not adequate to ensure that:

                   •   JV adjustments included the appropriate categories, included detailed
                       explanations, included the appropriate supported or unsupported
                       statement in the description field, and provided detailed support


1
    OMB Circular No. A-123, “Management's Responsibility for Internal Control,” December 21, 2004,
    provides updated internal control standards and new requirements for conducting management's
    assessment of internal control over financial reporting. The revised OMB Circular No. A-123 became
    effective in FY 2006. Subsequently, DoD canceled DoD Instruction 5010.40 and issued DoD
    Instruction 5010.40, “Managers' Internal Control Program Procedures,” January 4, 2006. See Appendix
    C for a discussion of how the revised guidance impacts our reporting on the DFAS Indianapolis
    management control program.



                                                    3
           documentation (finding A). The corrective actions taken and
           Recommendation A., if implemented, will improve the procedures for
           processing journal vouchers at DFAS Indianapolis.

       •   DFAS Indianapolis management and internal review complied with
           DoD FMR, volume 6A, chapter 2, coordination and oversight
           requirements (finding B). The corrective actions taken and
           Recommendation B., if implemented, will improve the coordination
           and oversight processes at DFAS Indianapolis.

Adequacy of Management’s Self-Evaluation. DFAS Indianapolis did not
conduct a self evaluation of its journal voucher preparation process and
coordination and oversight requirements, and, therefore, did not discover or report
the material management control weaknesses identified by the audit. We will
provide a copy of this report to the senior official responsible for management
controls in the Office of the Assistant Secretary of the Army for Financial
Management and Comptroller and Director, DFAS Indianapolis.




                                     4
           A. Journal Voucher Adjustments
           DFAS Indianapolis did not correctly process the 24 JV adjustments made
           to the Army General Fund, Fund Balance With Treasury account for the
           period ending June 30, 2005. Specifically, DFAS Indianapolis did not:

                  •   select the appropriate category on 5 JV adjustments with an
                      absolute value of $4.3 billion,

                  •   include detailed explanations to support the purpose for 21 JV
                      adjustments with an absolute value of $34.9 billion,

                  •   include the appropriate supported or unsupported statement in
                      the description field for 6 JV adjustments with an absolute
                      value of $34.9 billion, and

                  •   provide detailed documentation to support the 24 JV
                      adjustments with an absolute value of $37.1 billion.

           The JVs were not accurately processed because DFAS Indianapolis did
           not establish procedures to ensure adherence to the DoD FMR, volume
           6A, chapter 2; Office of the Under Secretary Defense (Comptroller)/Chief
           Financial Officer 3rd Quarter Guidance; and DFAS Indianapolis Standard
           Operating Procedures 1114. As a result, DFAS Indianapolis cannot
           provide reasonable assurance that the JV adjustments are accurate and
           valid and will correct the errors or conditions made to the Army General
           Fund, Fund Balance With Treasury account as of June 30, 2005.


JV Adjustment Process
    The DFAS Indianapolis JV adjustment process includes procedures for preparing,
    reviewing, and approving JV adjustments. After determining the need for a JV
    adjustment, DFAS Indianapolis is required to:
           •   select the category that is applicable to the purpose of the JV;

           •   provide the necessary support documentation, including explanations
               of errors and calculations that support the JV adjustments;

           •   provide documentation that would allow external users and reviewers,
               including auditors, to understand the purpose of the JV adjustment,
               extract the data, and trace it back to source documentation
               independently;

           •   complete the JV checklist to confirm that the JV is properly and
               accurately prepared; and




                                         5
           •   provide the necessary annotations (tick marks) throughout the
               supporting document that would allow an external user to understand
               the trail of the support documentation.

    The approver is responsible for reviewing the checklist, the JV, and the
    supporting documentation to determine whether the JV is valid, accurate, and
    properly supported before approving the JV.


JV Adjustment Requirements
    Treasury Financial Manual. Treasury Financial Manual, volume 1, part 2,
    chapter 5100, Supplement, “Fund Balance With Treasury Reconciliation
    Procedures,” November 1999, provides the following guidance regarding JV
    adjustment explanations:

           An agency may not arbitrarily adjust its FBWT account. Only after
           clearly establishing the causes of errors and properly documenting
           those errors, should an agency adjust its FBWT account balance. If an
           agency must make material adjustments, the agency must maintain
           supporting documentation. This will allow correct interpretation of the
           error and its corresponding adjustment.

    DoD Financial Management Requirement. DoD FMR, volume 6A, chapter 2,
    states that operational internal controls are required to ensure the proper recording
    of JVs. DoD FMR, volume 6A, chapter 2, states that all JVs should be:

           •   categorized by each of the applicable ten specific categories listed in
               the guidance,

           •   adequately documented to support the validity and the amount of the
               JV transaction,

           •   authorized and approved at the appropriate level of management, and

           •   maintained in a central location either in a hard copy or in an
               electronic form.

    Quarterly Guidance. Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer, FY 2005 3rd Quarter Guidance
    (OUSD[C]/CFO 3rd Quarter Guidance), “Attachment 6C: Journal Voucher
    Category Identification Codes and Metric Reporting,” requires DoD Reporting
    Entities to select the appropriate categories for JV adjustments from the category
    selection provided in DDRS. OUSD(C)/CFO 3rd Quarter Guidance also requires
    DoD Reporting Entities to classify JV adjustments as supported or unsupported.
    This information is part of the accounting adjustments metric that Components
    must report quarterly after the completion of financial statements.




                                             6
    DFAS Standard Operating Procedures. DFAS Indianapolis SOP 1114 requires
    the JV preparers to accumulate the necessary support for the JV. The following
    support is required:

           •   a JV facts page describing the purpose, background, and sources for
               the JV;

           •   a calculation page or spreadsheet that contains the name of the
               provider and the date provided; and

           •   data sources such as e-mails, Data Collection Module printouts,
               reports, and data extracts. If not apparent, the name of the provider
               and the date provided must also be included.


Adequacy of the JV Adjustments
    DFAS Indianapolis needs to strengthen controls over the JV adjustment process.
    Specifically, DFAS Indianapolis did not select the appropriate category of JVs,
    include detailed explanations for JVs, include the appropriate supported or
    unsupported statement on JVs, and provide detailed documentation to support
    JVs. See Appendix D for a list of the issues identified with the JV adjustments.

    JV Categories. DFAS Indianapolis did not select the appropriate category on
    5 of 24 JV adjustments. Categories identify the purpose and documentation
    needed to support the JV adjustment. DoD FMR, volume 6A, chapter 2;
    OUSD(C)/CFO 3rd Quarter Guidance; and DFAS SOP 1114 require DFAS
    Indianapolis to select a category that is applicable to the JV adjustment. The
    category for two of the five JVs was identified as code E “Reconciliation of Trial
    Balance and Budget Execution“ when it should have been a code H “Identified
    Errors and Reasonableness Check.” One JV was identified as code B "Data Call"
    when it should have been a code J "Other Accruals." The remaining two JVs
    were also categorized as a code E when another category would have been more
    appropriate. For two of the five JV adjustments, DFAS Indianapolis agreed that
    they did not select the most appropriate category; however, they will make an
    effort to be more aware of this issue in the future.

    JV Explanations. DFAS Indianapolis did not include detailed explanations to
    support the purpose for 21 of the 24 JV adjustments. Specifically, DFAS
    Indianapolis did not identify the actual cause of the errors that created the need
    for 19 JV adjustments to the FBWT account. Also, for 2 of the 21 JV
    adjustments, DFAS Indianapolis did not describe how it was known that the
    original JV adjustment was incorrect and why the correcting JV adjustment was
    accurate or more accurate. Treasury Financial Manual, chapter 5100,
    Supplement, states that agencies may not arbitrarily adjust their FBWT account
    without clearly identifying the causes of the errors and properly documenting the
    errors. DoD FMR, volume 6A, chapter 2, further requires correcting entry JV
    adjustments to contain the documentation supporting the correct amount and a
    narrative explaining how it is known that the original entry was incorrect and why
    the correcting entry was accurate or more accurate.



                                         7
For example, JV Reference Number 3053000ZZZ (5098) provided the following
explanation:
       The Army's Fund Balance with Treasury (FBWT) is reported to DFAS
       via two streams of data, expenditure and general ledger, and must agree
       with the cash balance reported by Treasury. The expenditure data is
       used in reporting to Treasury, and must pass a series of edits, which
       can create differences between the general ledger and Treasury. This
       JV will bring the general ledger into agreement with the Treasury Trial
       Balance.

DFAS Indianapolis personnel stated that in many cases, they could not provide a
specific explanation of the reason for the JV adjustment because they did not
know the exact reason for the discrepancies. As a result, DFAS Indianapolis can
not provide assurance that the JV adjustment actually corrected the problem nor
can it prevent the errors or mistakes from reoccurring.

JV Description Field. DFAS Indianapolis did not include the appropriate
supported or unsupported statement in the description field for six JV
adjustments. For three JV adjustments, DFAS Indianapolis did not include a
supported or unsupported statement in the description field. DFAS Indianapolis
incorrectly classified two of the six JV adjustments as supported even though the
JV adjustments lack the necessary documentation required by OUSD(C)/CFO
3rd Quarter Guidance. DFAS Indianapolis also incorrectly classified a JV as
unsupported even though it contained the documentation required by
OUSD(C)/CFO 3rd Quarter Guidance. OUSD(C)/CFO 3rd Quarter Guidance
requires all JV adjustments to state whether the JV is supported or unsupported in
the description field. OUSD(C)/CFO 3rd Quarter Guidance also provides
guidance on how to determine whether the JV adjustments are supported or
unsupported. In addition, the guidance acknowledges that the method to
determine whether a JV adjustment is supported or unsupported may not pass
audit scrutiny. The selection of an appropriate supported or unsupported
statement is important because OUSD(C)/CFO uses this information to report
metrics related to its material weaknesses. As a result, DFAS Indianapolis may
have distorted the JV adjustment classifications reported in the quarterly
OUSD(C)/CFO accounting adjustments metric.

JV Support Documentation. DFAS Indianapolis did not provide detailed
documentation to support 24 JV adjustments totaling $37.1 billion. Specifically,
DFAS Indianapolis did not:

       •   include a logical audit trail for the 24 JV adjustments that would allow
           an external reviewer to determine the source of the documentation or
           independently obtain or reproduce the support,

       •   provide appropriate annotations throughout the documentation that
           would allow an external reviewer to validate and easily understand the
           reason for 15 JV adjustment, and

       •   provide adequate documentation to support the FBWT amount
           reported on 19 JV adjustments.


                                         8
    DoD FMR, volume 6A, chapter 2, states that sufficient and proper documentation
    is necessary to support all JVs and allow external reviewers, such as auditors, to
    clearly understand the reason for the JV and be able to determine whether it is
    proper and accurate. The guidance also requires that DFAS Indianapolis provide
    sufficient and detailed written documentation as support for adjustments to
    provide an audit trail to the source transactions. The guidance further states that
    calculations that support the amount of the JV adjustment should be readily
    identifiable. Table 3 shows the number and absolute value amount of each of the
    deficient areas by accounting system.

                   Table 3. JV Adjustment Support Documentation
                                   ($ in Billions)

                     Inadequate Audit              Inadequate           Inadequate
                           Trail                   Annotations         Documentation
     Accounting        JV                          JV                     JV
      System       Adjustments    Amount       Adjustments   Amount   Adjustments   Amount
     DDRS-             9         $ 3.1             5         $ 3.1        5         $ 3.1
     AFS

     CLRS-AFS          14           2.4            9           0.8        13          2.3

     CLRS-FE           1          31.6             1          31.6        1          31.6

     Total             24        $ 37.1            15        $ 35.5       19        $ 37.0



    Thus, DFAS Indianapolis did not have an effective audit trail that would allow an
    external reviewer to clearly understand the reason for the JV adjustment,
    determine the source transactions, and conclude whether the JV adjustment is
    proper and accurate.


Compliance with JV Adjustments Requirements
    DFAS Indianapolis did not follow the requirements of the DoD FMR, volume 6A,
    chapter 2; OUSD(C)/CFO 3rd Quarter Guidance; and DFAS Indianapolis
    SOP 1114. Specifically, DFAS Indianapolis did not follow established policies
    and procedures to ensure that JV adjustments were properly prepared, justified,
    supported, and traceable.

    DoD Financial Management Regulation. DFAS Indianapolis did not follow the
    requirements of the DoD FMR, volume 6A, chapter 2, in selecting the appropriate
    categories for the JV adjustments. DFAS Indianapolis did not follow the
    requirements of the DoD FMR because OUSD(C)/CFO 3rd Quarter Guidance did
    not provide accurate information regarding the selection of the appropriate
    categories. OUSD(C)/CFO 3rd Quarter Guidance requires DoD reporting entities
    to select the appropriate category based on categories listed in DDRS. DDRS is a
    system used primarily for financial reporting, not guidance; DoD reporting


                                           9
    entities should not select categories based on information presented in DDRS.
    Thus, DFAS Indianapolis should follow the requirements described in DoD FMR,
    volume 6A, chapter 2, for selecting JV categories.

    DFAS Indianapolis did not include detailed explanations to support the purpose
    of the JV as required by DoD FMR, volume 6A, chapter 2. DFAS Indianapolis
    did not follow the requirements of the DoD FMR, volume 6A, chapter 2, because
    it misinterpreted the use of the supported or unsupported statement required by
    OUSD(C)/CFO 3rd Quarter Guidance. OUSD(C)/CFO 3rd Quarter Guidance
    requires all JV adjustments to state whether the JV is supported or unsupported in
    the description field. The guidance states that OUSD(C)/CFO uses this
    information to report its material weaknesses for all DoD reporting entities.
    DFAS Indianapolis personnel stated that they felt they were disclosing their
    inability to identify specific causes of the error creating the need for the JV when
    they labeled the JV adjustment “unsupported.”

    OUSD(C)/CFO Quarterly Guidance. DFAS Indianapolis personnel did not
    include the appropriate supported/unsupported statement in the description field
    as required by OUSD(C)/CFO 3rd Quarter Guidance. OUSD(C)/CFO 3rd
    Quarter Guidance states that the last sentence within the description field of all
    JVs will state whether the JV adjustment is supported or unsupported. DFAS
    Indianapolis stated that the supported or unsupported statement in the description
    field was a new requirement. The JV adjustments reviewed during the audit were
    for the period ending June 30, 2005, thereby leaving little time for DFAS
    Indianapolis to implement the guidance into its operating procedures.

    DFAS Indianapolis SOP 1114. DFAS Indianapolis did not ensure that the JV
    adjustments were properly prepared, justified, supported, and traceable. DFAS
    Indianapolis SOP 1114 states that the JV approvers must ensure that the peer
    reviewers and preparers of JV adjustments appropriately carried out their
    responsibilities in the JV adjustment approval process. JV approvers did not
    conduct adequate reviews of the JV adjustment to ensure that the preparation of
    the JV adjustments complied with the requirements of DFAS SOP 1114. In
    addition, DFAS Indianapolis did not provide detailed procedures in its SOP 1114
    to ensure that the JV approvers complied with the SOP. DFAS Indianapolis
    agreed that an effective audit trial did not exist and that perhaps they work too
    closely to the data to determine objectively the amount of documentation needed
    to support each JV.

Conclusion
    In the absence of ensuring compliance with relevant criteria, DFAS Indianapolis
    cannot provide a reasonable assurance that JV adjustments result in an accurate
    representation of the AGF FBWT account. DFAS Indianapolis uses JV
    adjustments during the preparation of the financial statements to adjust errors
    identified during the financial reports review process, to record those accounting
    entries resulting from system limitations or timing differences, and for
    month-/year-end closing purposes. DFAS Indianapolis needs to improve its
    internal controls to ensure that the JV adjustments record and report accurate and
    reliable information for the AGF financial statements.


                                         10
Corrective Actions Taken
    As a result of our audit, DFAS Indianapolis consolidated its branch-level standard
    operating procedures for JVs and issued departmental accounting standard
    operating procedures for JVs. The procedures, if implemented, will ensure that
    adequate controls exist for preparing JVs. The procedures, dated March 2006:

        •   briefly describe each of the ten categories and identify the documentation
            necessary to support each category;

        •   require that JVs include an explanation of why the adjustment was
            required, what caused the error, and what the effects would be if not
            adjusted;

        •   require that the explanation entered on the JV be sufficient to withstand
            audit scrutiny by someone who is not intimately familiar with current
            business processes or systems;

        •   require that supporting documents clearly indicate how the amounts are
            computed;

        •   require that any JV affecting Treasury Balances be coordinated with and
            reviewed by a supervisor of the Treasury Support Branch;

        •   require the completion of the JV approval checklist to ensure that the JV
            meets the requirements of internal control procedures and the DoD
            FMR 7000.14-R; and

        •   require that approving officials provide an explanation to the JV preparer
            for why the JV was rejected, information required to obtain approval, and
            applicable authoritative guidance.

    Although this departmental SOP is a positive step, the SOP needs to include
    information addressing the requirements of the OUSD(C)/CFO quarterly
    guidance. In addition, DFAS Indianapolis needs to amend SOP 1114 to ensure
    that its procedures are in accordance with the departmental SOP procedures.


Management Comments on Finding and Audit Response
    DFAS Indianapolis Comments. The Director, DFAS Indianapolis did not agree
    with the finding. Specifically, the Director, DFAS Indianapolis disagreed that
    DFAS Indianapolis did not provide detailed explanations on 21 JVs with an
    absolute value of $34.9 billion or documentation on 24 JVs with an absolute value
    of $37.1 billion. The Director, DFAS Indianapolis stated, “While some journal
    vouchers were not adequately addressed and have since been corrected, the
    numbers provided by the audits appear to be overstating and sensationalizing the
    issue.” The Director, DFAS Indianapolis also stated that their inability to identify
    the exact causes of the differences is a separate issue.


                                        11
    Audit Response. We do not agree with the Director, DFAS Indianapolis that the
    numbers presented in this report are overstating or sensationalizing the issue. The
    identification of the exact causes of errors justifies the correcting entries on the
    subsequent JVs. Without researching and identifying the exact causes there is no
    assurance that the subsequent JVs correct the perceived errors or exacerbate them.

    Although not required to comment, the Deputy Chief Financial Officer of
    OUSD(C) provided the following comments on the finding. For the full text of
    the OUSD(C) comments, see the Management Comments section of the report.

    OUSD(C) Comments. The Deputy Chief Financial Officer of the OUSD(C)
    stated that DDRS-AFS and the DoD FMR used the same categories for JVs but
    used different identifiers for those JV categories. The Deputy Chief Financial
    Officer of OUSD(C) explained that the JV category identifiers in the DoD FMR
    were being modified to agree with those in the DDRS-AFS. The Deputy Chief
    Financial Officer of the OUSD(C) was considering revising the DDRS-AFS to
    require users to determine if the JV was supported or unsupported before the JV
    could be saved in DDRS-AFS.

    Audit Response. The comments by the Deputy Chief Financial Officer of the
    OUSD(C) were useful in that they concurred with the recommendation made to
    DFAS Indianapolis and noted that they were revising current guidance to alleviate
    the problem.


Recommendation, Management Comments, and Audit
  Response
    A. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis improve the JV adjustment process by establishing
    policies to ensure compliance with all applicable updated guidance, for
    example, OUSD quarterly guidance.

    Management Comments. The Director, DFAS Indianapolis did not concur with
    the recommendation. However the Director, DFAS Indianapolis agreed to
    implement the substance of the recommendation.

    Audit Response. Because the Director, DFAS Indianapolis agreed to implement
    the substance of the recommendation, no further comments are required.

    OUSD(C) Comments. Although not required to comment, the Deputy Chief
    Financial Officer of OUSD(C) agreed with our recommendation requiring
    Defense Finance and Accounting Service to establish policies in compliance with
    OUSD(C) guidance.




                                        12
                   B. Coordination and Oversight
                      Requirements
                   DFAS Indianapolis did not provide adequate coordination and oversight
                   of the Army General Fund, Fund Balance With Treasury JV adjustment
                   process. Specifically, DFAS Indianapolis did not:

                            •   properly coordinate JVs of $1 billion with the appropriate
                                officials before processing,

                            •   conduct JV reviews to ensure that the approval thresholds were
                                met,
                            •   review a sample of JV adjustments of less than $500 million to
                                determine whether supporting documentation was present and
                                adequate, and

                            •   perform an assessment of the controls over the JV process and
                                procedures as required by the DoD FMR, volume 6A,
                                chapter 2.

                   Inadequate coordination and oversight occurred because DFAS
                   Indianapolis did not follow established policies and procedures identified
                   in the DoD FMR, volume 6A, chapter 2. Additionally, DFAS
                   Indianapolis personnel did not understand that the assessment of the
                   organization’s JV adjustments was mandatory. As a result, the oversight
                   authority may be unaware of certain JV adjustments that require attention,
                   and JVs may not receive the proper oversight required to minimize risks
                   associated with the JV adjustments.

Criteria for Coordination and Oversight of JV Adjustments
           DoD FMR, volume 6A, chapter 2, includes five 2 oversight requirements that
           relate to customer and auditor coordination, Director of Accounting review, and
           internal review of JV adjustments. DoD FMR, volume 6A, chapter 2, requires all
           JVs of more than $1 billion to be approved by the Director of the reporting entity
           and coordinated with the customer and auditors before processing the proposed
           adjustment.

           DoD FMR, volume 6A, chapter 2, also states that adequate managerial internal
           controls are required to be maintained at each level of management to ensure




2
    The DoD FMR, volume 6A, chapter 2, oversight requirement for the review of reversing JV adjustments
    did not apply to our review because the JV adjustments that we reviewed did not include any reversing
    JV adjustments.



                                                     13
    proper oversight of JV preparation. As a minimum, such managerial internal
    controls should include the following actions. DoD FMR, volume 6A, chapter 2,
    states:

               •   Within no more than 10 work days after financial reports are
                   prepared, the entity’s Director for Accounting (or the
                   equivalent) shall review all journal vouchers to determine if
                   approval thresholds were met, and if not, obtain such
                   approvals.

               •   Within no more than 10 work days after financial statements
                   are prepared, the entity’s Director for Accounting (or the
                   equivalent) shall review a selected sample of journal vouchers
                   under $500 million to determine if supporting documentation
                   is present and adequate.             If adequate supporting
                   documentation is not present, the journal voucher shall be
                   returned to the preparer with a request that adequate
                   documentation be provided.

               •   Within no more than 10 work days after financial statements
                   are prepared, the entity’s Director for Accounting (or the
                   equivalent) shall review a selected sample of reversing journal
                   voucher entries under $500 million to determine if they are
                   correctly prepared, documented, reviewed, processed, and
                   approved. If not, the Director for Accounting shall take
                   appropriate actions to ensure that not only reversing journal
                   voucher entries, but all journal vouchers entries, are properly
                   processed in the future.

    In addition, the DoD FMR, volume 6A, chapter 2, requires the entity’s internal
    review office to include an assessment of its organization’s JV processing
    procedures in its annual internal control procedures (Statement of Assurance).


Coordination and Oversight of JV Adjustments
    DFAS Indianapolis did not provide adequate coordination and oversight over the
    JV adjustment process. DFAS Indianapolis did not properly coordinate JVs of
    more than $1 billion with the appropriate official before processing, conduct JV
    reviews to ensure that the approval thresholds were satisfied, review a sample of
    JV adjustments of less than $500 million to determine whether support
    documentation was present and adequate, and perform an assessment of the
    controls over of the JV process and procedures as required by DoD FMR
    volume 6A, chapter 2. See Appendix D for a list of the issues with JV
    adjustments.

    Coordination Requirements. DoD FMR, volume 6A, chapter 2, requires that all
    JVs of more than $1 billion be coordinated with the customer and auditors before
    processing the JV. DFAS Indianapolis did coordinate with the Assistant
    Secretary of the Army (Financial Management and Comptroller) and DoD Office


                                            14
    of the Inspector General after the JV adjustments were processed. DFAS
    Indianapolis stated that due to time constraints, it was unable to coordinate with
    the appropriate official before the JV adjustment. Without proper coordination,
    the appropriate officials may not be aware of adjustment amounts, which may
    have a significant impact on the AGF FBWT account.

    Approval Threshold Review Requirements. The DoD FMR, volume 6A,
    chapter 2, requires review of all JV adjustments to determine whether appropriate
    approval was obtained based on approval thresholds. The Director of
    Accounting, DFAS Indianapolis did not conduct or designate any reviews to
    determine whether the appropriate approval was obtained. Without a review by
    the Director of Accounting, DFAS Indianapolis cannot provide reasonable
    assurance that the thresholds are met.

    Supporting Documentation Review Requirements. The DoD FMR,
    volume 6A, chapter 2, requires that a review be conducted for a selected sample
    of JVs of less than $500 million to determine whether supporting documentation
    is present and adequate. The Director of Accounting, DFAS Indianapolis did not
    conduct or designate any reviews for the 18 of the 24 JV adjustments to determine
    whether supporting documentation was present and adequate. As a result, DFAS
    Indianapolis cannot ensure that the JV adjustments of less than $500 million are
    properly supported.

    Assessment of JV Adjustments. The DoD FMR, volume 6A, chapter 2, states
    that the entity internal review office should include an assessment of its JV
    processing procedures in its annual internal control procedures (Statement of
    Assurance). DFAS Indianapolis implemented an internal accounting and
    administrative control system that performs monthly, quarterly, and ongoing
    evaluations on its assessable units. However, DFAS Indianapolis did not conduct
    a self-assessment that identified and evaluated risks associated with the JV
    adjustment process. As a result, DFAS Indianapolis is unable to provide
    reasonable assurance regarding the adequacy of internal controls and reliability of
    the AGF FBWT account.

Rationale for Noncompliance with the DoD FMR
    DFAS Indianapolis did not follow established policies and procedures identified
    in DoD FMR, volume 6A, chapter 2, for coordination, JV review, and oversight.
    DFAS Indianapolis personnel stated that the coordination and oversight were not
    completed because the current timeframes associated with the financial statement
    preparation do not allow for the multiple reviews required by DoD FMR, volume
    6A, chapter 2. DFAS Indianapolis personnel also stated that the coordination
    requirement was not practical under our current business practices. Additionally,
    DFAS Indianapolis personnel stated they thought that an assessment by the DFAS
    Indianapolis Internal Review Office was a decision made by management.
    Because there was no initiation of the review from management, the internal
    review personnel did not think that an assessment of the JV preparation and
    approval process was their responsibility.




                                         15
Conclusion
    Oversight authority may be unaware of certain JV adjustments; therefore, JVs
    may not receive the oversight required to minimize risk associated with the
    adjustment made to FBWT account. To reduce the risk, DFAS Indianapolis must
    make improvements to its internal control procedures to ensure that it conducts
    reviews and assessments and coordinates adjustments of more than $1 billion with
    the required oversight authority.


Corrective Actions Taken by the DFAS Indianapolis
    Before the completion of our audit, DFAS Indianapolis addressed some of the
    issues presented in this report through new policies and procedures. The
    Departmental SOP establishes guidance for providing oversight of the JV
    adjustment process. For example, it requires the Director for Accounting
    Operation to:

           •   review all JVs to determine whether proper approvals were obtained
               based on approval thresholds and if not, obtain proper approvals;

           •   review a selected sample of JVs of less than $500 million to determine
               whether supporting documentation is present and adequate; and

           •   review a selected sample of reversing JV entries of less than
               $500 million to determine whether they were correctly prepared,
               documented, reviewed, processed, and approved.

    The Departmental SOP does not adequately address the proper coordination of
    JVs more than $1 billion.


Recommendations
    B. We recommend that the Director of the Defense Finance and Accounting
    Service Indianapolis implement procedures to ensure that the coordination
    requirements outlined in the Financial Management Regulation, volume 6A,
    chapter 2, “Financial Reports Roles and Responsibilities,” March 2002 are
    accomplished.

    Management Comments. The Director, DFAS Indianapolis concurred with the
    recommendation stating that all journal vouchers will be coordinated with the
    DoD Office of the Inspector General and customer prior to completing the final
    draft of the financial statements.




                                       16
Appendix A. Scope and Methodology
   We reviewed procedures and analyzed the 24 JV adjustments made by
   DFAS Indianapolis to the AGF FBWT account for the period ending
   June 30, 2005. Specifically, we reviewed whether DFAS Indianapolis provided
   adequate controls over the JV adjustments process and effective oversight to
   ensure that the JV adjustments corrected the errors made to the AGF FBWT
   account. The 24 JV adjustments reviewed were generated from the DDRS-AFS,
   CLRS-AFS, and CLRS-FE. We also reviewed the management control program
   as it related to the overall objective.

   We performed this audit from July 2005 through August 2006 in accordance with
   generally accepted government auditing standards. We interviewed and made
   inquiries of DFAS Indianapolis personnel as a part of our review.

   Use of Computer-Processed Data. We relied on computer-processed data from
   CLRS-FE, CLRS-AFS, and DDRS-AFS. For all three systems, we relied on the
   JV adjustments to the AGF FBWT account for the period ending June 30, 2005,
   and the supporting documentation to determine whether each JV adjustment was
   adequately supported In addition, for CLRS-AFS, we relied on the AGF FBWT
   trial balance for the period ending June 30, 2005, to determine the universe of JV
   adjustments entered into CLRS-AFS for the period ending June 30, 2005. Also,
   for DDRS-AFS, we relied on the June 30, 2005, AGF Balance Sheet and AGF
   Note 3, “Fund Balance With Treasury,” and the June 30, 2005, DoD
   Agency-Wide Balance Sheet and DoD Agency-Wide Note 3, “Fund Balance With
   Treasury” to calculate various ratios involving the FBWT account.

   We did not perform a formal reliability assessment of computer-processed
   financial data. We did not test the computer-processed data for reliability because
   we used it only for background information and to determine whether DFAS
   Indianapolis could adequately support the JV adjustments. We were not
   determining the accuracy of the data. We determined the existence of the data.
   We did not find errors that would preclude the use of the computer-processed data
   to meet the audit objectives or that would change the conclusions in the report.
   Use of Technical Assistance. We did not use technical assistance to perform this
   audit.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the Financial Management high-risk area. GAO considered
   DoD financial management a high risk because DoD financial management
   deficiencies represent the single largest obstacle to achieving an unqualified
   opinion on the U.S. Government’s consolidated financial statements. DoD
   continues to face financial management problems that are pervasive, complex,
   long-standing, and deeply rooted in virtually all its business operations. DoD
   financial management deficiencies adversely affect the Department’s ability to
   control costs and claims on the budget, measure performance, maintain funds
   control, prevent fraud, and address pressing management issues. GAO first
   designated this area as high risk in 1995, and it remains so today.


                                       17
Appendix B. Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO), the
      Department of Defense Inspector General (DoD IG), the Army Audit Agency
      (AAA), the Naval Audit Service (NAS), the Air Force Audit Agency (AFAA),
      and the DFAS Internal Review (DFAS IR) have issued 19 reports that discuss
      Army General Fund, Fund Balance With Treasury account issues. Unrestricted
      reports can be accessed over the Internet at http://www.gao.gov (GAO),
      http://www.dodig.mil/audit/reports (DoD IG),
      https://www.aaa.army.mil/reports.htm (AAA),
      http://www.hq.navy.mil/NavalAudit/ (NAS), and
      https://www.afaa.hq.af.mil/afck/plansreports/reports.shtml (AFAA).

GAO
      GAO Report No. GAO-05-521, “DoD Problem Disbursements: Long-standing
      Accounting Weaknesses Result in Inaccurate Records and Substantial Write-
      offs,” June 2, 2005

      GAO Report No. GAO-04-910R, “Financial Management: Further Actions Are
      Needed to Establish Framework to Guide Audit Opinion and Business
      Management Improvement Efforts at DoD,” September 20, 2004

      GAO Report No. GAO-02-747, “Canceled DoD Appropriations: Improvements
      Made but More Corrective Actions Are Needed,” July 31, 2002


DoD IG

      DoD IG Report No. D-2006-039, “Internal Controls Over the Compilation of the
      Air Force, General Fund, FBWT for FY 2004,” December 22, 2005

      DoD IG Report No. D-2005-087, “Departmental Expenditure Reporting at DFAS
      Indianapolis,” June 27, 2005

      DoD IG Report No. D-2005-026, “Reliability of U.S. Army Corps of Engineers
      (USACE), Civil Works, Fund Balance With Treasury and Unexpended
      Appropriations,” December 28, 2004

      DoD IG Report No. D-2004-106, “Selected Controls Over the Army FBWT at
      DFAS Indianapolis,” August 5, 2004 DoD IG Report No. D-2003-034,
      “Adjustments to the Intergovernmental Payments Account,” December 10, 2002

      DoD IG Report No. D-2002-019, “Checks Issued Differences for Deactivated
      Disbursing Stations,” November 28, 2001




                                        18
Army
       AAA Report No. A-2005-0216-ALW, “Followup of Audit Report AA 00-399
       Compilation of Selected Army Working Capital Fund FY 99 Financial
       Statements,” July 1, 2005

       AAA Report No. A-2005-0136-ALW, “Attestation Examination of Selected
       Army Chief Financial Officers Strategic Plan Tasks, Fund Balance With
       Treasury,” March 18, 2005

       AAA Report No. A-2005-0127-ALW, “Validation of the Army's Fund Balance
       with Treasury,” March 10, 2005

       AAA Report No. A-2004-0006-FFG, “General Fund Followup Issues,”
       October 29, 2003

       AAA Memorandum A-2002-0348-FFC, “Audit of the U.S. Army Corps of
       Engineers FY 01 Financial Statements, Civil Works,” August 23, 2002)

       AAA Report No. A-2002-0365-AMW, “Compilation of Army Working Capital
       Fund FY 01 1307 Accounting Report,” May 13, 2002

Navy
       NAS Report No. N2005-0005, “Department of the Navy's Fund Balance With
       Treasury Account,” October 19, 2004

Air Force
       AFAA Report No. F2005-0001-FB3000, “Fund Balance With Treasury for Air
       Force General and Working Capital Funds,” 21, June 2005


DFAS IR

       Report No. KC03PAA048DFAS, “Fund Balance With Treasury-Material
       Weaknesses and Audit Obstacles,” April 29, 2005

       Report No. KC03PAA004DFAS, “Review of the Journal Voucher Process,”
       August 26, 2003




                                       19
Appendix C. Office of Management and
Budget Circular No. A-123
OMB recently revised OMB Circular A-123, “Management Accountability and
Control,” June 21, 1995. The revised OMB A-123, “Management’s
Responsibility for Internal Control,” became effective FY 2006 and superseded
all previous versions.

Requirements. OMB Circular A-123 provides updated internal control standards
and new specific requirements for conducting management’s assessment of the
effectiveness of internal control over financial reporting. Additionally,
OMB Circular A-123 provides guidance to DoD managers on improving the
accountability and effectiveness of DoD programs and operations by establishing,
assessing, correcting, and reporting on internal control.
OMB Circular A-123 also requires DoD to take measures that are systematic and
proactive to:
       (i) develop and implement appropriate, cost-effective internal control
       for results-oriented management; (ii) assess the adequacy of internal
       control in Federal programs and operations; (iii) separately assess and
       document internal control over financial reporting consistent with the
       process defined in Appendix A, “Internal Control over Financial
       Reporting,” (iv) identify needed improvements; (v) take corresponding
       corrective action; and (vi) report annually on internal control through
       management assurance statements.

Additionally, OMB Circular A-123 states, “when assessing the effectiveness of
internal control over financial reporting and compliance with financial-related
laws and regulations, management must follow the assessment process contained
in Appendix A, “Internal Control Over Financial Reporting.” Appendix A,
“Internal Control Over Financial Reporting,” provides a methodology for agency
management to assess, document, and report on the internal controls over
financial reporting.

Reliability of Financial Reporting. OMB Circular A-123, Appendix A, also
states, “internal control over financial reporting is a process designed to provide
reasonable assurance regarding the reliability of financial reporting.” Reliability
of financial reporting means that management can reasonably make the following
assertions:

       •   all reported transactions actually occurred during the reporting period
           and all assets and liabilities exist as of the reporting date (existence
           and occurrence);

       •   all assets and liabilities, and transactions that should be reported have
           been included, and no unauthorized transactions or balances are
           included (completeness);



                                         20
       •   all assets are legally owned by the agency and all liabilities are legal
           obligations of the agency (rights and obligations);

       •   all assets and liabilities have been properly valued, and where
           applicable, all costs have been properly allocated (valuation);

       •   the financial report is presented in the proper form and any required
           disclosures are present (presentation and disclosure);

       •   the transactions are comply with laws and regulations (compliance);

       •   all assets have been safeguarded against fraud and abuse; and

       •   documentation for internal control, all transactions, and other
           significant events is readily available for examination.

Definitions of Deficiencies. OMB Circular A-123 organizes deficiencies into the
following categories:

       Control Deficiency. A control deficiency exists when the design or
       operation of a control does not allow management or employees, in the
       normal course of performing their assigned functions, to prevent or
       detect misstatements on a timely basis. A design deficiency exists
       when a control necessary to meet the control objective is missing or an
       existing control is not properly designed, so that even if the control
       operates as designed the control objective is not always met. An
       operation deficiency exists when a properly designed control does not
       operate as designed or when the person performing the control is not
       qualified or properly skilled to perform the control effectively.

       Reportable Condition. A reportable condition is a control deficiency,
       or combination of control deficiencies, that adversely affects the
       entity’s ability to initiate, authorize, record, process, or report external
       financial data reliably in accordance with generally accepted
       accounting principles such that there is more than a remote likelihood
       that a misstatement of the entity’s financial statements, or other
       significant financial reports, that is more than inconsequential will not
       be prevented or detected.

       Material Weakness. A material weakness in internal control is a
       reportable condition, or combination of reportable conditions, that
       results in more than a remote likelihood that a material misstatement of
       the financial statements, or other significant financial reports, will not
       be prevented or detected.

The definition of a control deficiency, reportable condition, and material
weakness in OMB Circular A-123 relative to financial reporting is based on
Auditing Standard No. 2, “An Audit of Internal Control Over Financial Reporting
Performed in Conjunction with An Audit of Financial Statements,” issued by the
Public Company Accounting Oversight Board. Public Company Accounting
Oversight Board Auditing Standard No. 2 states, “The same concept of


                                           21
materiality that applies to financial reporting applies to information on internal
control over financial reporting, including the relevance of both quantitative and
qualitative considerations.”

Impact of Audit Results on the Reliability of Financial Reporting. Based on
the revised OMB Circular A-123, we consider the findings we identified material.
While individually these issues may not be material, taken as a whole, they are a
material weakness. We based our decision on quantitative and qualitative
considerations. OMB Circular A-123 states that reliability of financial reporting
means that management can make the following assertions:

       •   the transactions are in compliance with applicable laws and
           regulations (compliance); and

       •   documentation for internal control, all transactions, and other
           significant events is readily available for examination.

DFAS Indianapolis internal controls over the JV process were not adequate to
ensure that JVs were accurately processed. Additionally, DFAS Indianapolis
internal controls did not provide adequate coordination and oversight of the Army
General Fund, Fund Balance With Treasury JV adjustment process.




                                    22
     Appendix D. Issues Identified with JV Adjustments
            The following table provides in detail the issues identified with the JV adjustments described in finding A and finding B for
            each JV reviewed. Each “X” indicates where a deficiency was identified.

     JV Control                              Insufficient    Missing      Insufficient         No        No Approval   No Supporting
     or Reference          Inappropriate       Purpose Support/Unsupport    Support      Coordination of Threshold     Documentation
       Number                Category        Explanation   Statement     Documentation   $1 Billion JVs   Review          Review
     33012                                        X                           X                              X              X
     33013                                         X                          X                              X              X
     33147                         X                           X              X                  X           X
     33226                                        X                           X                              X             X
     33359                         X              X            X              X                              X
     33541                                                                    X                              X              X
     33724                                                                    X                              X              X
     33820                                       X           X                X                              X              X




23
     33821                                       X           X                X                              X              X
     3053000ZZZ (1096)                           X                            X                  X           X
     3053000ZZZ (2089)                           X                            X                              X              X
     3053000ZZZ (2090)                           X                            X                              X              X
     3053000ZZZ (5095)                           X                            X                             X               X
     3053000ZZZ (5098)                           X                            X                             X               X
     3053000ZZZ (5194)                           X                            X                             X               X
     3053000ZZZ (5285)                           X                            X                             X               X
     3053000ZZZ (5286)                           X                            X                             X               X
     3053000ZZZ (8063)                           X                            X                             X               X
     3053000ZZZ (8927)                           X                            X                             X               X
     3053026RJT (2089)         X                 X                            X                             X               X
     DEPOS305PK                X           ,     X                            X                             X               X
     MAF305NJM                                   X                            X                  X           X
     SUSP305SDP                X                 X         X                  X                  X           X
     0653003HSC                                  X         X                  X                  X           X
                  Total        5                21          6                 24                 5          24             18
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Financial and Accounting Service, Indianapolis

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform
House Subcommittee on Information Policy, Census, and National Archives, Committee
  on Oversight and Government Reform




                                          24
Office of the Under Secretary of Defense
Comments




                       25
26
Defense Finance and Accounting Service
Comments




                      27
28
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia Marsh
Douglas P. Neville
Amy L. Mathews
Mark S. Henricks
Lashonda Thompson
William W. Lemmon
Lamar Anderson
Jose J. Delino
Thomas G. Daquano, Jr.
Michael T. Burger
William R. Fagerholm
Cindy L. Gavura
Michael N. Hepler
